WAIVER

SUPREME COURT OF THE UNITED STATES

No. [20-7545

TYRONE ROBINSON CHRISTOPHER BUESGEN, Warden
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© I am filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:

Date: 5/4/21

(Type or print) Name |Scott E, Rosenow

© wr. O Ms. O Mrs. O Miss
Firm Wisconsin Department of Justice
Address Post Office Box 7857
City & State Madison, WI Zip 53707
Phone 608-266-3539 Email |-osenowse@doj.state.wi.us

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

‘Tyrone Robinson #499959
Stanley Correctional Institution
100 Corrections Drive
Stanely, WI 54768

cet
